        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Management Controls over the
Department of Energy’s American
Recovery and Reinvestment Act –
Louisiana State Energy Program




OAS-RA-10-09                          May 2010
                                  Department of Energy
                                    Washington, DC 20585
                                           May 3, 2010


MEMORANDUM FOR THE ASSISTANT SECRETARY, ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audit Services
                         Office of Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Management Controls over the
                         Department of Energy's American Recovery and Reinvestment Act – Louisiana
                         State Energy Program"

BACKGROUND

The Department of Energy's (Department) Office of Energy Efficiency and Renewable Energy
(EERE) provides grants to states, territories and the District of Columbia (states) to support their
energy priorities through the State Energy Program (SEP). Federal funding is based on a grant
formula that considers the population and energy consumption in each state, and amounted to
$25 million for Fiscal Year (FY) 2009. The American Recovery and Reinvestment Act of 2009
(Recovery Act) expanded the SEP by authorizing an additional $3.1 billion to states using the
existing grant formula. EERE made grant awards to states after reviewing plans that summarize
the activities states will undertake to achieve SEP Recovery Act objectives, including preserving
and creating jobs; saving energy; increasing renewable energy sources; and, reducing greenhouse
gas emissions. EERE program guidance emphasizes that states are responsible for administering
SEP within each state, and requires each state to implement internal controls over the use of
Recovery Act funds.

The State of Louisiana received $71.6 million in SEP Recovery Act funds; a 164-fold increase
over its FY 2009 SEP grant of $437,000. As part of the Office of Inspector General's strategy
for reviewing the Department's implementation of the Recovery Act, we initiated this review to
determine whether the Louisiana State Energy Office had internal controls in place to efficiently
and effectively administer Recovery Act funds provided for its SEP program.

OBSERVATIONS AND CONCLUSIONS

Our review identified certain risks associated with Louisiana's strategy that could impact the
State's ability to meet the goals of the SEP and the Recovery Act. Specifically, the State had not:

       Established controls to prevent double payments for Recovery Act energy conservation
       rebates to individuals who may have been approved or received payment under an
       existing State rebate program;
       Developed contingency plans to replace projects in the event that they do not receive
       timely National Environmental Policy Act (NEPA) approval to enable the expenditure of
       Recovery Act funds before the April 2012 performance deadline specified in the grant
       agreement; and,

       Fully documented and monitored, in the past, the status of internally managed SEP
       projects as required by both EERE and Louisiana policies and procedures.

Louisiana's ability to meet the SEP Recovery Act objectives in a transparent manner could be
hindered unless it successfully addresses the above risks. The following paragraphs outline
Louisiana's strategy for administering SEP Recovery Act funds and risks associated with its
approach.

                                      Louisiana's Strategy

Louisiana developed a strategy for SEP Recovery Act funding that focused on improving energy
efficiency in state buildings, housing and small businesses; increasing Energy Star appliance
rebates; and, expanding the use of alternative fuels and renewable energy. Due to a statewide
hiring freeze, Louisiana outsourced management of the majority of its projects ($63.3 million) to
one general contractor. Louisiana plans to internally manage one project, Education and
Outreach ($2.6 million). The remaining funds are allocated to program specific management
expenses, including the contractor's fee, a monitoring contract, and Louisiana's payroll expenses
($5.7 million). Louisiana formally approved the general contractor in February 2010. State
officials plan to initiate a separate consulting contract for monitoring, verifying and auditing
expenditures, energy savings and other metrics as required by EERE for Recovery Act funding.

At the time of our fieldwork, Louisiana had not fully established funds controls over Recovery
Act monies; therefore, we were unable to review all of the State's proposed controls over
Recovery Act funds. However, we were able to identify several areas of risk based upon
information provided to us by State officials during our fieldwork.

                                 Energy Conservation Rebates

Louisiana had not established controls to prevent double payments involving the use of Recovery
Act funds to pay energy conservation rebates to individuals who may have been already
approved or received payment from an existing State rebate program. Prior to the Recovery Act,
Louisiana operated its Home Energy Rebate Option (HERO) program that paid rebates to
individuals for home energy conservation measures. As part of Louisiana's strategy for
achieving the Recovery Act objectives, the State plans to transition management of this program
to the recently selected general contractor. According to State officials, the general contractor
will implement this project with its own database system, one that will not interface with
Louisiana's current database system for HERO. Without recipient information from Louisiana's
database, there is a risk of duplicating rebate payments already made by the State. Further,
unless there is an interface between the State HERO and the general contractor's databases there
is a risk that Recovery Act funds will be used to pay for energy conservation measures
previously approved for payment with State funds. Louisiana acknowledged this risk, and had


                                                2
begun to consider different options for addressing this risk, but had not, at the time of our report,
finalized a course of action to mitigate it.

                                          NEPA Approval

Louisiana had not established contingency plans to replace projects in the event that they do not
receive timely NEPA approval, a problem that could prohibit the expenditure of Recovery Act
funds prior to the April 2012 performance deadline specified in the grant agreement. NEPA
requires EERE to assess the environmental impacts of major Federal projects before approving
Louisiana's SEP Recovery Act projects. EERE issued categorical exclusions, allowed under
NEPA, to exempt all except two of Louisiana's proposed projects from the full NEPA evaluation
process, Alternative Transportation and Renewable Energy. However, Louisiana has budgeted
$20 million for projects that will require NEPA approval, including natural gas buses, filling
stations and commercially available renewable energy projects. According to EERE officials,
other states have experienced delays in obtaining NEPA approval for similar projects. State
officials told us they have not developed a contingency plan to address the risks associated with
NEPA delays. Contingency plans could include using Recovery Act funds to expand projects
that have categorical exclusions. State officials acknowledged this risk inherent in the NEPA
evaluation process. Although they had not identified a course of action to mitigate it, they
agreed it would be prudent to do so.

                                    Internally Managed Projects

Although required by EERE and the State's policies and procedures, Louisiana had not always
fully documented performance accomplishments and funding transactions of internally managed
SEP projects. EERE's SEP Operations Manual, for example, requires that states maintain project
files to accurately track project status. As previously mentioned, Louisiana plans to internally
manage the Education and Outreach project. Since Louisiana had only just begun to expend
Recovery Act funds at the time of our review, we examined the State's past implementation of
documentation and reporting requirements to assess its ability to meet these requirements as they
relate to Recovery Act funds.

Our review of past projects showed that the State had not established project files showing the
status of the projects nor performance accomplishments for the five internally managed projects
that we selected for review. Similarly, our review of financial records showed that the State
could not provide support for the amount of funds that it reported to EERE as having been
transferred between projects. By not ensuring that information is available on project
performance and financial transactions, Louisiana is at risk of not satisfying Recovery Act goals
of transparency in reporting on how funds are spent and the outcomes of funded activities.

RECOMMENDATIONS

EERE has provided oversight of Louisiana's use of Recovery Act funds on several levels. For
example, the National Energy Technology Laboratory provided a contracting officer and
budgetary support while the Golden Field Office provided a project officer and support with
NEPA issues. EERE also performed a monitoring visit of Louisiana's SEP that focused on

                                                  3
programmatic controls over Recovery Act funds in February 2010. The review, which did not
include non-Recovery Act performance, did not disclose any issues.

As part of EERE on-going oversight and support of Louisiana's use of Recovery Act funds, we
recommend that the Executive Director, Field Operations, EERE, ensure that the Louisiana State
Energy Office:

   1. Provides HERO project information to the general contractor to avoid duplicate
      payments;

   2. Develops a contingency plan to replace projects that do not receive timely NEPA
      approval; and,

   3. Follows existing documentation requirements for internally managed projects.

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

Management concurred with each of the recommendations. EERE will continue to oversee the
Louisiana Department of Natural Resources by conducting regular on-site visits, desk monitoring
and frequent communication. Louisiana has taken action to (1) establish protocols and a
database with the general contractor to ensure there will be no duplicate payments between the
state's existing SEP and Recovery Act funds; and, (2) manage the implementation of the
Education and Outreach activity by outside contractors by ensuring that it follows the same
reporting mechanism as the general contractor. Louisiana is currently developing contingency
plans to reallocate Recovery Act funds to program areas that are categorically excluded and
performing successfully. Management's comments are included in their entirety in Attachment
2.

Management's comments are responsive to the recommendations.

Attachments

cc: Deputy Secretary
    Under Secretary for Energy
    Chief of Staff
    Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Audit Liaison, Energy Efficiency and Renewable Energy, EE-3A
    Audit Liaison, Golden Field Office
    Audit Liaison, National Energy Technology Laboratory




                                              4
                                                                                    Attachment 1


                         OBJECTIVE, SCOPE, AND METHODOLOGY


OBJECTIVE

The objective of our audit was to determine whether the Louisiana State Energy Office had
internal controls in place to efficiently and effectively administer the American Recovery and
Reinvestment Act of 2009 (Recovery Act) funds provided for its State Energy Program (SEP)
program.

SCOPE

The audit was performed between August 2009 and January 2010. We conducted work
at the Department of Energy's (Department) Office of Energy Efficiency and Renewable Energy
(EERE),Washington, D.C.; Golden Field Office (Golden), Golden, Colorado; National Energy
Technology Laboratory (NETL), Pittsburgh, Pennsylvania; and, the Louisiana State Offices,
Baton Rouge, Louisiana.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed laws and regulations, State Energy Program Formula Grants Recovery Act
       Funding Opportunity announcement, and Office of Management and Budget policies and
       procedures relevant to the management of the Department's EERE Recovery Act funding;

       Reviewed grant award files, terms and conditions, and correspondence documents;

       Held discussions with Louisiana, Golden, and NETL officials;

       Reviewed Louisiana's SEP Recovery Act state plan and the methodology used for the
       assumptions in the state plan;

       Reviewed prior SEP grants, policies and procedures for managing SEP projects, requests
       for proposals; and,

       Performed transaction testing for SEP Recovery Act transactions and reconciled Fiscal
       Years 2008 and 2009 Petroleum Violation Escrow Accounts.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. We assessed the significant
internal controls and found that measures specifically related to accounting for the Recovery Act
SEP program had not been fully established. Because our review was limited, it would not

                                                5
                                                                         Attachment 1 (continued)


necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely upon computer processed data to accomplish our audit objective.

We briefed Louisiana officials on October 15, 2009, and Department officials at Golden and
NETL on October 28, 2009. An exit conference was held with Department officials on April 28,
2010.




                                                 6
                                  Department of Energy
                                     Washington, DC 20585

                                         April 15, 2010



MEMORANDUM FOR:                George Collard
                               Assistant Inspector General
                                for Performance Audits

FROM:                          Kathleen B. Hogan (508 Version No Signature)
                               Deputy Assistant Secretary
                                for Energy Efficiency
                               Office of Technology Development
                               Energy Efficiency and Renewable Energy

SUBJECT:                       Response to the Office of Inspector General Draft Report on
                               "Management Controls over the Department of Energy's American
                               Recovery and Reinvestment Act - Louisiana State Energy Program"

The Office of Energy Efficiency and Renewable Energy (EERE) appreciates the opportunity to review the
Office of Inspector General’s (IG) draft audit report "Management Controls over the Department of
Energy's American Recovery and Reinvestment Act - Louisiana State Energy Program."

We concur with the recommendations as stated. EERE will continue to oversee that the actions
described by the Louisiana Department of Natural Resources (DNR) are followed by conducting
regular on-site visits, desk monitoring and frequent communication. The EERE Louisiana SEP
Project Officer recently visited the State of Louisiana, and we will continue to work with DNR to
ensure their ARRA SEP programs and projects are positioned for success.

Should you have any questions, please contact Mark Bailey at 202-586-9424.

Attachments
                                 Response to Inspector General
    Audit Report: "Management Controls over the Department of Energy's American Recovery and
                       Reinvestment Act - Louisiana State Energy Program"


Recommendation 1
Establish controls to prevent double payments for Recovery Act energy conservation rebates to
individuals who may have been approved or received payment under an existing State rebate
program;

Response
Concur

Since the time of the IG’s audit last year, the Louisiana Department of Natural Resources
(DNR), the office responsible for management of the Department of Energy’s State Energy
Program contracted with a general contractor in February 2010 to administer the SEP programs.
The DNR and the general contractor have established protocols and a database to ensure there
will be no duplicate payments between the state’s existing State Energy Program and the
Recovery Act (RA) SEP funds. Compliance with protocols will result in shared project
information between the existing program database and the new program database. These
protocols are included in the executed contract with the general contractor.

Estimated Completion Date: Completed


Recommendation 2
Develop contingency plans to replace projects in the event that they do not receive timely
National Environmental Policy Act (NEPA) approval to enable the expenditure of Recovery Act
funds before the April 2012 performance deadline specified in the grant Agreement.

Response
Concur

DNR is currently developing contingency plans to address this matter. Should NEPA or other
issues arise with any awarded projects, DNR’s plan will be to reallocate the funds to program
areas that are categorically excluded and performing successfully.

Estimated Completion Date: May 31, 2010


Recommendation 3
Fully document and monitor the status of internally managed SEP projects as required by
both EERE and Louisiana policies and procedures.

The existing Education and Outreach activity included in the annual SEP grant is
managed internally, however, implementation of the Education and Outreach activity
funded with ARRA funds will be managed by outside contractors that will follow the
same reporting mechanism as the general contractor. These activities will be managed in
the same way as all outside contracts.

Response
Concur

Estimated Completion Date: Completed
                                                                 IG Report No. OAS-RA-10-09

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
